      Department of Homeland Security



       Wisconsin’s Management of Homeland Security 

      Program and Urban Areas Security Initiative Grants 

       Awarded During Fiscal Years 2008 Through 2010 





OIG-13-33                                       January 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                              JAN 30 2013

MEMORANDUM FOR:              David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Wisconsin’s Management of Homeland Security Program and
                             Urban Areas Security Initiative Grants Awarded During Fiscal
                             Years 2008 Through 2010

Attached for your action is our final report, Wisconsin’s Management of Homeland Security
Program and Urban Areas Security Initiative Grants Awarded During Fiscal Years 2008
Through 2010. We incorporated the formal comments from the Federal Emergency
Management Agency and the Office of Justice Assistance in the final report.

The report contains five recommendations aimed at improving the State’s management of
State Homeland Security Program and Urban Areas Security Initiative grants. Your office
concurred with all recommendations. As prescribed by the Department of Homeland
Security Directive 077-1, Follow-Up and Resolutions for the Office of Inspector General
Report Recommendations, within 90 days of the date of this memorandum, please provide
our office with a written response that includes your (1) agreement or disagreement, (2)
corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is received
and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary ............................................................................................................ 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................... 2


           State and UASI Homeland Security Strategies........................................................ 3

           Recommendation ................................................................................................... 4

           Management Comments and OIG Analysis ........................................................... 5


           Subgrantee Monitoring........................................................................................... 5

           Recommendations .................................................................................................. 8

           Management Comments and OIG Analysis ............................................................ 8


           Budget Misclassification ......................................................................................... 9

           Recommendations ................................................................................................ 11 

           Management Comments and OIG Analysis .......................................................... 12 


           Measurable Strategic Goals and Objectives ......................................................... 12 


           Best Practices ........................................................................................................ 13 


           Other Concerns ..................................................................................................... 14 


Appendixes
           Appendix A:           Objectives, Scope, and Methodology ........................................... 16 

           Appendix B:           Management Comments to the Draft Report .............................. 19 

           Appendix C:           Homeland Security Grant Program............................................... 24 

           Appendix D:           Wisconsin Homeland Security Council – Participating State and 

                                 Local Agencies .............................................................................. 25 

           Appendix E:           Major Contributors to This Report ............................................... 26 

           Appendix F:           Report Distribution ....................................................................... 27 

                   OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


Abbreviations
     CFR        Code of Federal Regulations
     DHS        Department of Homeland Security
     FEMA       Federal Emergency Management Agency
     FY         fiscal year
     GAN        Grant Adjustment Notice
     HSGP       Homeland Security Grant Program
     OIG        Office of Inspector General
     OJA        Office of Justice Assistance
     OMB        Office of Management and Budget
     SHSP       State Homeland Security Program
     SMART      specific, measurable, achievable, results-oriented, time-limited
     STAC       Southeastern Wisconsin Anti-Terrorism Center
     UASI       Urban Areas Security Initiative
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the Department of Homeland Security (DHS), Office of
   Inspector General (OIG), to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Wisconsin.

   The objectives of the audit were to determine whether the State of Wisconsin (1) spent
   grant funds effectively and efficiently; (2) complied with applicable Federal laws and
   regulations and DHS guidelines governing the use of such funding; and (3) enhanced the
   ability of State grantees to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters. The audit included a review
   of approximately $43 million in State Homeland Security Program and Urban Areas
   Security Initiative grant funds awarded by the Federal Emergency Management Agency
   (FEMA) to Wisconsin from fiscal years 2008 through 2010.

   In most cases, the State Administrative Agency, the Office of Justice Assistance,
   administered its grant programs in compliance with requirements in Federal grant
   guidance and regulations. The Office of Justice Assistance linked program goals and
   objectives to national priorities and DHS mission areas. The State Homeland Security
   Strategy contained defined objectives and goals to measure performance. Grant funds
   were spent on allowable items and activities, and adequate controls existed over the
   approval of expenditures and reimbursement of funds.

   However, we identified three areas for program improvement: the Urban Areas
   Security Initiative Homeland Security Strategy operational plan, subgrantee monitoring
   procedures, and review of grant adjustments.

   We made five recommendations to FEMA for improvements, which, if implemented,
   should strengthen program management, performance, and oversight.




www.oig.dhs.gov                                1                                        OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Appendix C
   contains details of HSGP.

   The Wisconsin Governor appointed the Office of Justice Assistance (OJA) as the
   Wisconsin State Administrative Agency. OJA is responsible for managing HSGP in
   accordance with established Federal guidelines and allocating funds to local and other
   State government agencies. OJA is also responsible for State and Federal fiscal oversight
   and development of the State Homeland Security Strategy. In addition, OJA is a
   member of the Wisconsin Homeland Security Council, which the Governor established
   to assist in the coordination of homeland security outreach efforts and operations. The
   council, which comprises 13 appointed representatives from State and local agencies,
   advises the Governor, coordinates State and local prevention and response efforts, and
   produces periodic reports on the state of homeland security in Wisconsin. Appendix D
   contains the participants of the Wisconsin Homeland Security Council.

   OJA awards HSGP-funded grants to subgrantees—cities, counties, and various State
   agencies in Wisconsin. In 2006, OJA implemented the Web-based Egrants system to
   streamline processing and improve grant reporting and communications. According to
   OJA, Egrants enhances Federal and State fiscal portfolio management, improves funding
   announcements and coordination, monitors progress and financial reporting by
   subgrantees, and improves equipment inventory reporting.

   The State received approximately $43 million in State Homeland Security Program
   (SHSP) and Urban Areas Security Initiative (UASI) grant funds from fiscal years (FYs) 2008
   through 2010. Appendix A provides details on the objectives, scope, and methodology
   for this audit.

   From FYs 2008 through 2010, the Milwaukee UASI received $4.5 million, $4.2 million,
   and $4.2 million, respectively. In May 2011, the Milwaukee UASI was notified that it
   would not receive FY 2011 funding. According to OJA officials, the Milwaukee UASI will
   be able to continue using FY 2010 grant funds through 2013. The officials also said that
   meetings have been held to develop sustainment plans for the Milwaukee UASI programs.

   Results of Audit
   In most cases, OJA administered its grant programs in compliance with requirements in
   Federal grant guidance and regulations. OJA developed and aligned its State Homeland

www.oig.dhs.gov                                2                                       OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Security Strategy with National Preparedness Guidelines. It also developed yearly
   strategies that linked goals and objectives to the four mission areas and eight national
   priorities established by DHS. OJA’s reimbursement processes were timely, accurate,
   and controlled. OJA also established measurable strategic goals and objectives in its
   State Homeland Security Strategy. OJA uses a comprehensive Web-based grants
   management system to track, process, and report grant activity.

   However, although OJA developed its State strategy in accordance with national
   preparedness guidelines, it needs to finalize and better align its UASI Homeland Security
   Strategy operational plan. In addition, OJA needs to monitor subgrantees better and
   improve its review of grant adjustments.

           State and UASI Homeland Security Strategies

           Wisconsin’s State Homeland Security Strategy is properly aligned with priorities
           in the National Preparedness Guidelines and other Federal guidelines. However,
           the UASI Homeland Security Strategy operational plan has not been finalized and
           does not completely reflect the goals and objectives in the strategy submitted to
           and approved by FEMA.

           State Homeland Security Strategy Aligns With National Preparedness Guidelines

           Wisconsin’s State Homeland Security Strategy is properly aligned with the
           priorities in the National Preparedness Guidelines and the Target Capabilities
           List, which are the guidelines the State uses to create its strategy. The State
           strategy includes goals and objectives that are linked to DHS-established mission
           areas and national priorities.

           During our audit, we reviewed two State strategies—the State of Wisconsin
           Homeland Security Strategy created in 2003, which was in effect through 2008,
           and the State of Wisconsin Homeland Security Strategy, implemented in 2009
           and in effect through 2011. The primary focus of the State strategy in effect
           from 2003 through 2008 was to prevent, respond to, and recover from acts of
           terrorism. OJA updated the State strategy in effect from 2009 through 2011 to
           align with the revised National Homeland Security Strategy and the National
           Preparedness Guidelines. The updated State strategy was more comprehensive
           and predominantly capabilities-based; it was designed to help Wisconsin make
           informed choices to manage risk and reduce the impact of potential threats and
           all types of hazardous events, both natural and manmade.




www.oig.dhs.gov                                3                                        OIG-13-33
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Milwaukee UASI Homeland Security Strategy Operational Plan Needs
           Improvement

           The Milwaukee UASI Homeland Security Strategy operational plan, used to
           implement day-to-day operations, is not finalized and does not completely
           reflect the strategy the State submitted and FEMA approved. According to the
           State and Urban Area Homeland Security Strategy, Guidance on Aligning
           Strategies with the National Preparedness Goal, “the State and Urban Areas
           Homeland Security Strategies should have strong foundations that support an
           ongoing process of review and refinement as new lessons are learned, new
           priorities are realized, and new homeland security guidance is released.” The
           operational plan was neither approved nor refined. As a result, UASI may be
           pursuing goals and objectives and implementing day-to-day operations that are
           not aligned with those approved by FEMA.

           Our review of the 2006 operational plan, which was the basis for HSGP FY 2008
           and FY 2009 funding, showed that its goals and objectives did not completely
           align or contain the level of detail in its objectives (that is, specific, measurable,
           achievable, results-oriented, time-limited, or SMART) as the FEMA-approved
           strategy. In addition, UASI did not approve the operational plan.

           According to an OJA official, the Milwaukee UASI did not develop a
           comprehensive UASI Homeland Security Strategy operational plan until 2010.
           However, the 2010 operational plan was not approved. The plan included
           reviewer comments in the margins. Finally, it did not completely align with the
           goals or contain SMART objectives like those in the FEMA-approved strategy.

           In May 2011, FEMA notified the Wisconsin Homeland Security Administrator
           that, because of budget cuts, it would not receive FY 2011 UASI funding.
           According to an OJA official, as a result of not being funded, UASI changed its
           priority from updating the operational plan to sustaining operations.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           direct the Office of Justice Assistance to:

           Recommendation #1:

           Update the 2010 UASI Homeland Security Strategy operational plan to include
           the goals and objectives of the FEMA-approved strategy and incorporate into it
           current plans for sustaining Milwaukee UASI operations.

www.oig.dhs.gov                                   4                                          OIG-13-33
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Management Comments and OIG Analysis

           Management Response: FEMA concurred with recommendation 1. FEMA
           stated that it will direct Wisconsin’s Office of Justice Assistance to update its
           State Homeland Security Strategy to incorporate goals and objectives for
           sustaining Milwaukee UASI operations. OJA agreed with recommendation 1.
           According to OJA, it received an updated 2010 Strategy from the Milwaukee
           UASI on October 8, 2012, and forwarded it to FEMA on October 9, 2012, for
           review and approval.

           OIG Analysis: The actions proposed by FEMA and taken by OJA are responsive to
           the recommendation. However, the recommendation will remain open and
           unresolved until final implementation of the proposed corrective actions.

           Subgrantee Monitoring

           OJA does not adequately monitor subgrantees to ensure that they are complying
           with applicable Federal requirements. Although OJA monitors subgrantees
           through Single Audits, desk audits, and compliance site visits, these efforts do
           not always ensure sufficient compliance monitoring of Federal laws and grant
           requirements.1 Specifically, Single Audits do not provide sufficient audit coverage,
           and desk audits were not performed for HSGP grants from FYs 2008 through
           2010. OJA conducts compliance site visits, but they are conducted after grants
           are closed and mainly to ensure only that grant-funded equipment is allowable,
           necessary, distributed, and adequately secured. As a result, OJA cannot be
           assured that subgrantees’ day-to-day operations and grant-related activities
           comply with Federal requirements.

           According to the Code of Federal Regulations (CFR), 44 CFR 13.40(a), Monitoring
           and Reporting Program Performance, Monitoring by grantees, grantees are
           required to manage the day-to-day operations of grant and subgrant-supported
           activities and ensure that subgrantees comply with applicable Federal
           requirements. Additionally, OMB Circular A-133, Compliance Supplement, Part
           3M, requires grantees to monitor subgrantees’ use of Federal awards through
           reporting, site visits, regular contact, or other means.



   1
    All non-Federal entities that expend $500,000 or more in Federal awards in a year are required to obtain
   an annual Single Audit in accordance with the Single Audit Act Amendments of 1996; Office of
   Management and Budget (OMB) Circular A-133, Audits of States, Local Governments, and Non-Profit
   Organizations; and OMB Circular A-133, Compliance Supplement; and Generally Accepted Government
   Auditing Standards.

www.oig.dhs.gov                                        5                                              OIG-13-33
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Single Audits

           OJA uses results from the Single Audits to monitor subgrantees that receive
           HSGP grant funds. During FYs 2008 through 2010, only two of the five
           counties/cities selected for our site visits had HSGP grants reviewed during their
           Single Audits. Thus, the Single Audit process does not provide adequate
           coverage to monitor HSGP grant funds.

           In addition to Single Audits, OJA requires auditors to use a supplemental audit
           guide to ensure compliance with criteria in 44 CFR 13.40. The supplemental
           guide addresses HSGP grant requirements, such as financial controls and
           reporting, procurement controls, equipment inventories, and testing of grant
           expenditures. However, the guide has not been used because HSGP funds in
           some counties have not been considered “major.”2

           For the five locations selected for our site visits, we obtained and reviewed the
           Single Audit reports completed during the scope of our audit. Although all five
           of the counties/cities had Single Audits performed in FYs 2008 through 2010,
           three of the counties did not have HSGP grants tested (see table 1). Waukesha
           County had HSGP coverage in 1 out of 3 years, and only the City of Milwaukee
           had HSGP grants tested all 3 years. OJA relies on internal control testing through
           Single Audits of non-HSGP grants because of the similarity of a county’s
           accounting controls and processes. However, Single Audits do not test specific
           HSGP grant requirements, such as grant financial controls and reporting
           requirements, procurement controls, and equipment inventories.

           Although an OJA official contended that coverage is adequate, OJA relies
           substantially on Single Audits to monitor subgrantees. Because the audits do not
           cover all counties and do not always test HSGP grant requirements, the Single
           Audit process does not provide sufficient coverage.




   2
    Major program determination—“The auditor shall use a risk-based approach to determine which Federal
   programs are major programs. This risk-based approach shall include consideration of current and prior
   audit experience, oversight by Federal agencies and pass-through entities, and the inherent risk of the
   Federal program.” OMB Circular A-133, Major Program Determination.

www.oig.dhs.gov                                      6                                             OIG-13-33
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Table 1: Single Audit Coverage of HSGP Grants in Wisconsin, FYs 2008–2010 

                                  State of Wisconsin Single Audit Coverage (HSGP)
                                          FY 2008                   FY 2009                   FY 2010
              Wisconsin       FY 2008                   FY 2009                   FY 2010
                                        Single Audit              Single Audit              Single Audit
             County / City   Coverage                  Coverage                  Coverage
                                           Issues                    Issues                    Issues
               City of
                               Yes          Yes            Yes        Yes           Yes         Yes
              Milwaukee
              Milwaukee        No           N/A            No         N/A           No          N/A
             Washington        No           N/A            No         N/A           No          N/A
              Waukesha         No           N/A            Yes        No            No          N/A
               Jefferson       No           N/A            No         N/A           No          N/A
           Source: DHS OIG-prepared from review of FYs 2008 to 2010 Single Audit reports for selected
           counties and the City of Milwaukee.

           Desk Audits

           OJA did not conduct desk audits for any HSGP grants awarded from FYs 2008
           through 2010 because of scheduling and staffing issues. As a result, the desk
           audit process for these grants has not enhanced OJA’s monitoring of subgrantees.

           An OJA official said that desk audits for FY 2008 through 2010 HSGP grants
           resumed after the completion of OIG’s fieldwork. Out of the 62 grants selected
           for a desk audit, 32 have been completed. According to OJA, future HSGP desk
           audits will consist of (1) fiscal review (whether expenditures are within budget;
           fiscal reports are current and submitted by due dates; and expenses appear
           reasonable, allocable, and allowable); (2) equipment review (whether there is
           evidence of cash outflow); (3) program review (whether program reports are
           current and submitted by due date and whether there are changes in project
           directors); and (4) file review (whether files contain applications, awards, and
           payment requests; and whether Equal Employment Opportunity and
           discrimination issues are documented). These reviews relate to grant
           performance and do not take into account all requirements in 44 CFR 13.40.

           Compliance Site Visits

           Although OJA conducts equipment compliance site visits, these visits take place
           at the end of the grant and are limited to reviews of grant-purchased equipment
           to ensure that it is allowable, necessary, distributed, and adequately secured.
           Field representatives are assigned to specific regions of the State to perform
           these site visits. A visit is scheduled to view the equipment and conduct
           interviews. Once the compliance site visit is completed, the equipment in


www.oig.dhs.gov                                        7                                              OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           question is not tested again. Because these visits are conducted at the close of
           grants and are limited reviews, they do not ensure that subgrantees are fully
           monitored throughout grant programs.

           Conclusion

           OJA has three processes to monitor subgrantees, but none provides assurance
           that subgrantees are fully monitored for compliance with Federal grant guidance
           and regulations. Single Audits did not provide adequate HSGP coverage, desk
           audits were not completed for HSGP grants awarded from FY 2008 through
           FY 2010, and compliance site visits are limited reviews.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           direct the Office of Justice Assistance to:

           Recommendation #2:

           Perform timely and routine desk audits of Homeland Security Grant Program
           grants.

           Recommendation #3:

           Incorporate steps into the desk audits, in order to comply with 44 CFR 13.40, for
           testing of grant financial controls and reporting requirements, procurement
           controls, and testing of grant expenditures, similar to the Office of Justice
           Assistance’s supplemental audit guide.

           Management Comments and OIG Analysis

           Management Response: FEMA concurred with recommendations 2 and 3.
           FEMA stated that it will direct OJA to develop a plan for routine and timely desk
           audits, and incorporate steps into its existing monitoring policy for desk audits.
           OJA agreed with recommendation 2 and partially agreed with recommendation 3.
           OJA reported that it has completed desk monitoring of all 62 FYs 2008 through
           2010 HSGP grants selected for review that were not completed at the conclusion
           of our fieldwork. OJA is evaluating modifications to the desk monitoring process.
           Among the changes being considered is an increase in the frequency of desk
           monitoring. In addition, OJA stated that maintaining a 20 percent desk
           monitoring level should be attainable in the future because Wisconsin’s


www.oig.dhs.gov                                 8                                       OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           homeland security funding has dropped 83 percent between 2008 and 2012,
           which will substantially decrease the number of subgrants to be monitored.

           OJA believes that it meets its obligations under 44 CFR 13.40, but nonetheless is
           considering enhancing its monitoring process to provide greater assurances of
           compliance. This will include creating weighting within the criteria for selecting
           20 percent of grants for desk monitoring. The weighting will consider whether
           the subrecipient had a major single audit finding over the past 2 years, and if not,
           additional questions relating to existing controls will be asked.

           OIG Analysis: The actions proposed by FEMA and taken by OJA are responsive to
           recommendations 2 and 3. These recommendations will remain open and
           unresolved until final implementation of the proposed corrective actions.

           Budget Misclassification

           Although OJA normally spent grant funds on allowable items and activities and
           had adequate controls over the approval of grant award expenditures and
           reimbursement of funds, we noted one budget misclassification involving a grant
           to the City of Milwaukee. Specifically, $95,266 in grant funding was incorrectly
           categorized in the grant budget as supplies and operating expenses rather than
           as equipment. Because of this misclassification, equipment that first responders
           would use in an emergency was not reported and inventoried as required. As a
           result, OJA may have reduced its ability to properly assess first responder
           capabilities and performance levels.

           OJA reported this error to us. It occurred when a grant was being adjusted
           (through a Grant Adjustment Notice) and was a result of miscommunication
           between OJA and the Milwaukee UASI. A Grant Adjustment Notice completed
           on December 21, 2011, erroneously subtracted $98,308 from the equipment
           budget category and increased supplies and operating expenses by $95,266, as
           shown in table 2. The equipment purchased under the grant (ID 6497), is used in
           the Southeastern Wisconsin Anti-Terrorism Center (STAC), Wisconsin’s primary
           intelligence analysis and dissemination facility. The overall grant of $555,000
           was used to fund the STAC project manager, two intelligence analysts,
           technology equipment and software licensing, and STAC physical security
           enhancements.




www.oig.dhs.gov                                 9                                        OIG-13-33
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Table 2. Grant Adjustment for Grant ID 6497 

                                       Grant ID 6497 Budget Detail

              Approved Budget by         Current Subgrant
                                                              Net Change    New Budget
                   Category                   Budget

            Personnel                       $207,400.00       $14,989.26    $222,389.26

            Employee Benefits               $97,600.00       ($11,947.51)   $85,652.49

            Travel                          $30,000.00           $0.00      $30,000.00

            Equipment                      $219,000.00       ($98,308.00)   $120,692.00

            Supplies and Operating
                                             $1,000.00        $95,266.25    $96,266.25
            Expenses

            Total                          $555,000.00           $0.00      $555,000.00
           Source: DHS OIG analysis of grant ID 6497.

           Our review of grant expenditures and a physical inventory of STAC equipment
           showed that equipment valued at $95,266 and categorized as supplies and
           operating expenses was actually the primary equipment supporting STAC and its
           emergency response, as depicted in table 3. According to OJA grant
           announcement instructions, first responder-related equipment should be
           considered sole purpose equipment and not categorized as supplies.




www.oig.dhs.gov                                     10                                    OIG-13-33
                                OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           Table 3: Equipment Purchase for Grant ID 6497

                                       Summary of Purchased Equipment

                      Equipment                  Unit Cost      Quantity   Total Costs

            Secure Intelligence Area
                                                 $4,329.64         6       $25,977.84
            Computers

            Secure Intelligence Area
                                                 $3,812.09         7       $26,684.63
            Computers

            Secure Intelligence Area
                                                  $990.00          6        $5,940.00
            Computers

            STAC TV Monitors                     $2,084.98         2        $4,169.96

            Audio Data Jacks                     $6,196.84         1        $6,196.84

            STAC Software – STAC –
                                                 $7,364.87        N/A       $7,364.87
            Secure Intelligence Area

            Miscellaneous Equipment                N/A            N/A      $19,932.11

            Total                                                          $96,266.25
           Source: DHS OIG analysis of grant ID 6497.

           OJA reported that there were multiple communications with UASI, but UASI’s
           description of the equipment did not lead OJA to believe it was for emergency
           response. OJA agreed that since STAC and the Secured Intelligence Area
           expenditures support first responder activities, the equipment should have been
           categorized as equipment in the budget and properly inventoried at the
           completion of the grant.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           direct the Office of Justice Assistance to:

           Recommendation #4:

           Require the Milwaukee UASI to accurately account for equipment in a Grant
           Adjustment Notice for grant ID 6497.




www.oig.dhs.gov                                      11                                  OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #5:

           Require the Milwaukee UASI to inventory and report the Southeastern
           Wisconsin Anti-Terrorism Center equipment to the Office of Justice Assistance.

           Management Comments and OIG Analysis

           Management Response: FEMA concurred with recommendations 4 and 5.
           According to FEMA, grantees must comply with CFR Title 44 § 13.32 (d),
           Management requirements, which states the minimum requirements for
           managing equipment and replacement equipment purchased with grant funds.

           FEMA directed OJA to require the Milwaukee UASI to inventory and report the
           Southeastern Wisconsin Anti-Terrorism Center equipment to OJA. Additionally,
           FEMA directed OJA to incorporate procedures to its existing monitoring policy to
           ensure that all subgrantees are in compliance with property management
           requirements. These procedures must address the development of property
           management records, completion of property inventories, and equipment
           inspections.

           OJA agreed with recommendations 4 and 5. According to OJA, the City of
           Milwaukee requested a Grant Adjustment (GAN) for grant #6497 to move
           $95,758.71 from Supplies & Operating Expenses to Equipment. OJA approved
           the GAN on July 3, 2012. Once the GAN was completed, the City of Milwaukee
           submitted a revised Inventory Report on July 11, 2012. According to OJA, it
           conducted onsite monitoring of the newly inventoried equipment on July 25,
           2012, and found that all equipment on the grant is properly accounted for.

           OIG Analysis: The actions proposed by FEMA and taken by OJA are responsive to
           recommendations 4 and 5. These recommendations will remain open and
           unresolved until final implementation of the proposed corrective actions.

           Measurable Strategic Goals and Objectives

           The State of Wisconsin’s Homeland Security Strategy contains defined goals and
           objectives to use in measuring performance. The FEMA-approved State strategies
           for FYs 2008 through 2010, in most cases, contained SMART objectives and
           provided a basis to determine when the goals and objectives have been
           achieved. As a result, OJA was able to measure improvements in its projects and
           response capabilities.



www.oig.dhs.gov                               12                                      OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The State and Urban Area Homeland Security Strategy, Guidance on Aligning
           Strategies with the National Preparedness Goal states, “the quality of the goals
           and performance against those goals are the primary determinants of an overall
           successful strategy.” The guidance also states, “an objective sets a target level of
           performance over time expressed as a tangible, measurable objective, against
           which actual achievement can be compared, including a goal expressed as a
           quantitative standard, value or rate.”

           OJA provided us with a subledger containing all HSGP subgrants awarded during
           FYs 2008 through 2010. From these SHSP and UASI grant awards, we selected a
           judgmental sample of 35 grants distributed among eight subgrantees, including
           the City of Milwaukee, as well as Milwaukee, Waukesha, Washington, and
           Jefferson counties. We also sampled subgrants awarded to the State agencies,
           including OJA, the Department of Justice, and the Department of Military
           Affairs. OJA officials provided a document with investment justifications and the
           goals and objectives corresponding to State and UASI strategies for each grant in
           our sample. We examined the 35 grants and these documents and determined
           that OJA established measurable strategic goals and objectives.

           To test OJA’s performance measurement processes, we evaluated a sample of
           subgrantee performance measurement reporting and data submitted to OJA.
           We concluded that performance reporting and data allowed OJA to assess HSGP
           grant capabilities and improvements.

           Best Practices

           OJA uses a comprehensive Web-based system to announce and process HSGP
           grants, as well as track and report on grant activity.

           Egrants System

           The Egrants system manages the grant process from inception to completion.
           OJA develops funding announcements and sends them to applicants through
           Egrants. In addition, applicants can use the system to apply for funding, report
           progress, receive notification of report due dates, and request grant modifications.
           OJA uses the system to task, assign, and show the disposition of subgrantee
           applications and to monitor workflow. Egrants is also used to track Federal
           awards by funding year and category and maintain fiscal balances and subgrantee
           budgets. Finally, Egrants enables maintenance of inventory data and captures
           measurements of grant performance.



www.oig.dhs.gov                                13                                        OIG-13-33
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In September 2010, FEMA identified use of the Egrants system as a best practice
           for managing grantee and subgrantee awards. During our site visits, subgrantees
           expressed satisfaction with Egrants because it is easy to use and enables grant
           program administration from start to finish.

           Other Concerns

           We noted the following concern during our audit, but we did not consider it
           pertinent to our objective and therefore did not make a recommendation.

           Potential Conflict of Interest

           We noted a potential conflict of interest in OJA. Specifically, in December 2011,
           the Governor of Wisconsin appointed a new executive director to OJA. While
           employed full-time as the executive director of OJA, he also serves as an elected
           mayor for a city in Wisconsin. The position of mayor is a part-time, nonpartisan
           position. In his role as OJA executive director, he has authority to receive and
           disperse grant funds received from State and Federal sources.

           The Grants Administrative Guide, Section IV, Conflict of Interest, states, “No
           official or employee of the state or unit of local government or of non-
           governmental recipients shall participate personally…in which award agency
           funds…are used, where to his/her knowledge, he/she or his/her immediate
           family, partners, organization other than a public agency in which he/she is
           serving as an officer, director, trustee, partner, or employee or any person or
           organization.…”

           According to OJA, although potential conflicts of interest involving the new
           executive director were discussed prior to the appointment, no policy or
           mitigation procedure was formally documented. Because Wisconsin can draw
           HSGP grant funds up to 36 months from the award date, the executive director’s
           decisions could still affect funds received during the scope of our audit (FYs 2008
           through 2010). Therefore, we requested that OJA provide a disclosure statement
           to address existing or future conflicts and to resolve potential future conflicts of
           interest.

           On March 6, 2012, OJA legal counsel provided a disclosure statement and agreed
           it was theoretically possible that there could be a conflict of interest between the
           executive director’s role and his duties as mayor. OJA legal counsel also
           recommended that, as long as he is mayor, the executive director should recuse
           himself from discussion or decision making related to any application for a grant
           made by the city or any grant that in part benefits the community. To date, OJA

www.oig.dhs.gov                                 14                                       OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           has not identified any situations in which the executive director’s exercise of
           authority has led to any actual, potential, or perceived conflict of interest.




www.oig.dhs.gov                                15                                        OIG-13-33
                                  OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of the audit was to determine whether the State of Wisconsin distributed
   and spent SHSP and UASI grant funds effectively and efficiently and in compliance with
   laws, regulations, and guidance. In addition, we determined the extent to which the
   State has measured improvements in its ability to prevent, prepare for, protect against,
   and respond to natural disasters, acts of terrorism, and other manmade disasters.

   The entire HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. We only reviewed for compliance SHSP and
   UASI equipment and programs supported by the grant funding. Appendix C contains
   information on these grant programs.

   The scope of the audit included the following programs:

                          Wisconsin Homeland Security Grant Program Awards
                                       FYs 2008 Through 2010
                   Program          FY 2008       FY 2009       FY 2010       Total
            State Homeland
                                   $10,640,000   $10,286,500    $9,584,902   $30,511,402
            Security Program
            Urban Areas
                                    $4,491,000    $4,159,850    $4,159,850   $12,810,700
            Security Initiative
                   Subtotal        $15,131,000   $14,446,350   $13,744,752   $43,322,102
           Source: FEMA.

   The audit methodology included interviews with FEMA representatives as well as work
   at the State Administrative Agency, OJA, the urban area that received grants, and
   various subgrantee locations. To achieve our audit objective, we analyzed data,
   reviewed documentation, and interviewed the key local officials directly involved in the
   management and administration programs under the Wisconsin HSGP. We conducted
   site visits and held discussions with appropriate officials from selected State agencies,


www.oig.dhs.gov                                   16                                       OIG-13-33
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   urban areas, and local jurisdictions to determine if program grant funds were expended
   in accordance with grant requirements and OJA established priorities.

   During the audit, we contacted the following 18 entities:

   Urban Areas Security Initiative
   • Milwaukee UASI

   State Agencies
   • Department of Justice
   • Department of Military Affairs
   • Office of Justice Assistance

   City/Counties
   • City of Milwaukee
   • Jefferson County
   • Milwaukee County
   • Washington County
   • Waukesha County

   Local Jurisdictions and First Responders
   • City of Milwaukee Fire Department
   • City of Milwaukee Office of Emergency Management and Homeland Security
   • City of Milwaukee Police Department
   • Jefferson County Office of Emergency Management
   • Milwaukee County Division of Emergency Management
   • Special Weapons and Tactics Milwaukee County
   • Southeastern Wisconsin Terrorism Alert Center
   • Washington County Emergency Management Department
   • Waukesha County Office of Emergency Management

   We interviewed responsible officials, reviewed documentation supporting OJA and
   subgrantee management of the grant funds (including expenditures for equipment,
   training, and exercises), and physically inspected equipment procured with the grant
   funds.

   We reviewed a judgmental sample of grant expenditures representing approximately
   36.1 percent of the dollar value expended for FYs 2008 through 2010 grants to determine
   whether the expenditures were supported and allowable under the terms of the grants.
   We judgmentally chose specific equipment items to observe at the local sites where
   they reside.

www.oig.dhs.gov                               17                                     OIG-13-33
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   We conducted this performance audit between December 2011 and March 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              18                                      OIG-13-33
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                             U.S,   DCII~ l1 mtn t   or lIo,"f ~mtl Securi ty
                                                                                            W.1$binglon . OC :<0472




              MEMO RANDUM FOR:              Anne L. Richards
                                            Assistant Inspector General for Audits
                                            Office of Inspector General

              FROM:                         David J. Kaufman    fA--
                                            Associate Administrator
                                            Pol icy, Program Analys is and International Affairs

              SUBJECT:                      Response 10 OIG Draft Repon, The State of Wisconsin's Managemem
                                            o/State Homeland Secllrily Program and Urban Areas Security
                                            Il1itiative (Jranls Awarded During Fiscal Years 2008 through 2010


              Thank you for the opponunity to comment on the draft repon. The fmd ings in the report will be used
              to strengthen the effectiveness and ctlieiency of how we execute and measure our programs. We
              recognize the need to conti nue to improve the process, including addressing the recommendations
              raisoo in this report. OUf rt!spollses to the rccommcndat ions are as follows:

              Recommendation # 1: We recommend that the Assistant Administrator, Grant Programs Directorate.
              direct the Office of Justice Assistance to update the 20 10 VAS l Homeland Security Strategy
              operational plan to incl ude the goals and objectives of the rEMA approved strategy and incorporate
              into it current plan!i for sU!ilaini ng Milwauktt VAS! operations.

              F EMA Response: FEMA concurs wi th the recommendation. FEMA will direct Wisconsin ' s Office
              of Justice Assistance (OJA) to update its State Homeland Security Strategy to incorporate goals and
              objectives for sustaining Mi lwaukee UAS I operations. The updated Strategy should be submitted to
              their GPO Program Analyst within 120 days from receipt of the fi nal repOlt and the grantee
              notiIil::ation memorandum . FEMA requests th<lt this recommendation be considered rC!iolved and
              open pending full imp lementation of the corrective action plan by the grantee.

              Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
              Directorate, direct the Office of Justice Assistance to perform timely and routine desk audits of
              Homeland Security Gnmt Program.

              F EI\1A Response: FEMA concurs with the recommendation. FEMA wi ll direct OJA to develop a
              plan for routine and time ly desk audi ts. FEMA will direct the SAA to submi t this plan to their GPO
              Program Analyst within 90 days from receipt of the fina l report and tht: grantt:e nOlific"t ion




www.oig.dhs.gov                                                19                                                               OIG-13-33
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              memorandum. FEMA requests that this recommendation be considered resolved and open pending
              full implementation of the corrective actIon plan by the grantee.

              Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
              Directorate, direct the Office of Justice Assistance to incorporate steps into the desk audits, in order
              to comply with 44 CFR 13.40, for testing of grant financial controls and reporting requirements,
              procurement controls, and testing of grant expenditures, similar to the Office of Justice Assistance's
              supplemental audit guide.

              FEMA Response: FEMA concurs with the recommendation. FEMA will direct OJA to incorporate
              steps into its existing monitoring policy for desk audits. Within 90 days of the receipt of the final
              report, the_ SAA wil l be required to provide a revised policy to include standards in accordance with
              the CFR to ensure compliance with monitoring and reporting program perfonnance for testing grant
              financial controls and reporting requirements, procurement controls and testing of grant
              expenditures. FEMA requests that this recommendation be considered resolved and open pending
              full implementation of the corrective action plan by the grantee.

              R~ommendatioD        #4: We recommend that the Assistant Administrator, Grant Programs
              Directorate, direct the Office of Justice Assistance to require the Milwaukee UASI to accurately
              account for equipment in a Grant Adjustment Notice for grant ID 6497.

              FEMA Response: FEMA concurs with the recommendation. CPR Title 44 §13.32 (d), Management
              requirements, states the minimum requirements for managing equipment and replacement equipment
              purchased with grant fumi.... Grantees must comply with these standards in accordance with the
              applicable grant terms, conditions. and assurances. Within 90 days of the receipt of the final report,
              the 8AA will be required to provide a plan for managing grant funded property and equipment to
              their GPD Program Analyst. FEMA requests that this reconunendation be considered resolved and
              open pending full implementation of the corrective action plan by the grantee.

              Recommendation #5: We recommend that the Assistant Administrator, Grant Programs
              Directorate, direct the Office of Justice Assistance to require the Milwaukee UAS[ to inventory and
              report the Southeastern Wisconsin Anti*Terronsm Center equipment to the Office of Justice
              Assistance.

              FEMA Response: FEMA concurs with the recommendation. Within 90 days of receipt of this final
              report, FEMA directs OJA to require the Milwaukee lJA..<;I to inventory and report the Southeastern
              Wisconsin Anti-Terrorism Center equipment to 01A. Additionally, FEMA directs OJA to
              incorporate procedures to its existing monitoring policy to ensure that all sub-grantees are in
              compliance with property management requirements within 90 days of receipt of this report. These
              procedures must address the development of property management records, completion of property
              inventories, and equipment inspections. FEMA requests that this recommendation be considered
              resolved and open pending full implementation of the corrective action plan by the grantee.

              Again, we thank you for the opportunity to address the recommendations contained in this report. If
              you have any questions regarding ow- response, please do not hesitate to call FEMA's Audit Liaison
              point of cont""!, Gina Norton, at 202-646-4287.




www.oig.dhs.gov                                               20                                                         OIG-13-33
                                            OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security




                                                                                                       State of Wiseon sill




                                  ~~CE
                                                                                                       SCOT\' WALKER
                                                                                                       GU"~fIlU r


                                                                                                       JOHN i\WRRA Y
            OFFICQ                                   ASSISTANCE                                        E.\:ecu ti ve Director

         1 S Pincl:ney Stl..,ct                                                                                         Pho~ p'   (('()8 ) 266·3321
         Suit. 515                                                                                                         fax ((·m)2{,6·6676
         Madison   W1537OJ·32~O
                                                                                                                                  htt]"l ~.'fop '" gov




                   October 10, 2012




                   Deputy Anne L. Rich<lrds
                   Assistantlnspeetor General of Audits
                   Department of Homeland Security
                   Office of Inspector General

                   Dear Ms . Richards:

                   Thank you ior the OPJXlr!unity to respond to the audit finding listed in the Draft Report of the State of
                   Wisconsin Management of State Homeland Security Program and Urban Area Security Initiatives Grants
                   2008-2010 AudiL.

                   Recommend ation #1:

                   Updale the 2010 VASI Homeland Security Strategy operational plan to include the goals and objectives
                   of the FEMA·approved strategy and incorpur~le into it current plans for sustainirg Milwaukee UASI
                   operations.

                   OJA Response:

                   OJA agrees with the recommendation. OJA received an updated 2010 Strategy from Ihe Milwaukee
                   UASI on October 8, 2012 and forwarded it to FErM on October 9, 20 12 for revievi and a~roval. This is
                   the same strotcgy that UASI Executive Committee '.....orked orf to create the UAS I spending plan in
                   accordance with stele strategy.

                   Recommenda tion #2:

                   Perform timely and routine desk auc'lts of Homeland Security Grant Program grarts,

                   OJA Response:

                   OJA agrees with the recommendation. T he Office of Justice Assistance is pleased to report that it has
                   completed desk monitoring's of all 62 FY2008 throL'gh 2010 HSGP grants selected for re\iiew that were
                   not complete as of the conciusiOll of DIG's fieldwork. OJA is committed to ensuring thai desk monitors for
                   HSGP grants <'lre performed timely and routinely and, to that end, is evaluating modiflcatic-ns to the desk
                   monitoring process. Among the changes being considejed is an increase in the number of times during
                   the year that desk monitoring \''{ould be performed, Desk monitors are currently periormed once per year
                   with information requested in August for payments made in the prior calendar year. Incre<.Jsing the
                   frequency wi I spread the desk monitors over the year mcking the worklcad more manageable.
                   Mainta ining a 20% desk monitoring level should be attainable in the future because W isconsin·s
                   Homeland Security funding has dropped 83% between 2008 and 2012 which will substantially decrease
                   the number of subgranls to he monitored




www.oig.dhs.gov                                                         21                                                                               OIG-13-33
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




              Recommendation 1#3:

              Incorporate st eps Into the desk audits, in order to comply with 44 CFR 13.40, for testing of grant financial
              controls and reporting requirements, procurement controls, and testing of gmnt expendituros, similar to
              the Offce of Justice Assi:;tance's supplemental audit guide.

              O.JA Response:

              OJA partially agrees with the recom mendation. As noted by the OIG, 44 CFR 13.40. FElv1A's codification
              of the grants management common f1Jle, reqLires grantees to lJe respon51Jle for monitoring sU~g'aniees'
              use of federal awards through reporting s te visits , reguler contact, or other means to provide reasonable
              assurance that Ina subgrantees adminislar federa l awards in compliance with laws, rogulotions, and the
              pro'/isions of conlrac:s or grant agreements, and that perfonnance goals are achieved. The Office of
              Juslice Assistance's comprehensive approach 10 monitor 119 subrecipienls, which was descrihFic1 ln I'l~rt
              by the D IG, conslsts of:

                      Requiring and reviewing periodic financiel repons of all subrecip ents including tre review of all
                      backup documentation with each reimlJurselnenl.
                      Requiring and reviewing periodic performance reports of a I sLbrecipients.
                      Desk monitoring of twenly pBfcenl oi non-equipment grant subrecipierts on a calendar year
                      basis.
                      Compliance on-site visits to all equipment grants upon clo!\eolJl , c;f ter equipment Is Invoiced,
                      installed and inventoried
                      Regular contact between OJI\'s grant odministrotion staff and subrecipients .

              In addition 10 the complehellsive monitoring proc€!\s ::Ibove, silborantees who meet the threshold receive
              an A-133 audit. Thi;; comprehensive process was recognized by FEMA as a best practice in the 2009
              and 20 11 FEMA mar itars.

              The OIG Audit report uses the terms 'audit' and ~rnoni lor' interchangeably anri they are very different
              thi ngs. OJA would like to correct that we do not conduct Desk Audits; ralher, we conduct Desk Monitors.

              The Office of Justice Assislance believes Ihat it meels its obi gations uncer 44 CFR 13.40, but
              nonethe'ess is considering the following ellhancement to provide greaier as!\ur::lnces of compliance'

                         Creating weighting within Ire criteria for selecting Iwenly percent of grants for desk monitoring to
                         consider wnelher the subrecipie1t had a major 5 ngle audit firding over the last 2 years. If Irey
                         did not have a major Clud I w'thin ihe last 2 years ac1dltional questions relating to existing controls
                         will be asked.

              Through the current monitor ng procedures and impemell!<;llion of this improvement, we be leve thaI we
              will be ::Ih'e to provide reasonable assurance and comply with 44 CFR 13.40.

              Recommend ation #4:

              Require the Milwaukee UASl to accurately account for equipment In a Gr:?nt AdjLstment Notice for grant
              10 6497.

              OJA Response:

              OJA agrees with the recommendation . The City of MilVJaukee requested a Grant Adjustment (GAN) for
              granl #6497 10 move $95,758.7 1 from Supplies & Operating Expenses to Equipment. OJ/\ approved the
              G/IN on 7/31201 2.

              Rec ommend ation 115:

              Require the M 'lwaukee UA$l to inventory and report the Soutrcastern Wisconsin Anti-Terrorism Center
              equipmert 10 the Office of Justice Assistorcc.




www.oig.dhs.gov                                                       22                                                           OIG-13-33
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                                                                                                Page 3




              OJA Response:

             OJA agrees with the recommenda:ion. Once the Grant Adjustmellt Notice \'VaS comple~ed to move
             $95,758.71 from Supplies & OperClting Expenses to Equipment, the City of Milwaukee submitted <)
             revised Invenlury Report on 7/11/2012. OJA conducted an on·site monitor of the newly inventoried
             equipment on 7125t201J! and found that all equipment on the grant is properly accountetJ fur.

             If you have further questions or comments, feel free to contact Darcey Varese, Financial Officer (608)
             266-9653.

             Sincere,):,



            ft!:r!Y~
             Executive Director




www.oig.dhs.gov                                                  23                                                      OIG-13-33
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Homeland Security Grant Program
   The Homeland Security Grant Program provides Federal funding to help State and local
   agencies enhance their capabilities to prevent, deter, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies. The Homeland Security Grant
   Program encompasses several interrelated Federal grant programs that together fund a
   range of preparedness activities, including planning, organization, equipment purchase,
   training, and exercises, as well as management and administration costs. Programs
   include the following:

   State Homeland Security Program provides financial assistance directly to each of the
   States and U.S. Territories to prevent, respond to, and recover from acts of terrorism
   and other catastrophic events. The program supports the implementation of the State
   Homeland Security Strategy to address the identified planning, equipment, training, and
   exercise needs.

   Urban Areas Security Initiative provides financial assistance to address the unique
   planning, equipment, training, and exercise needs of high-risk urban areas, and to assist
   in building an enhanced and sustainable capacity to prevent, respond to, and recover
   from threats or acts of terrorism and other disasters. Allowable costs for the urban
   areas are consistent with the State Homeland Security Strategy. Funding is expended
   based on the Urban Area Homeland Security Strategies.

   In addition, the Homeland Security Grant Program includes other interrelated grant
   programs with similar purposes. Depending on the fiscal year, these programs include
   the following:

   •   Metropolitan Medical Response System
   •   Citizen Corps Program
   •   Operation Stonegarden




www.oig.dhs.gov                               24                                       OIG-13-33
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Wisconsin Homeland Security Council – Participating State and
   Local Agencies
   The Wisconsin Homeland Security Council was created in 2003 to address the State’s
   ability to prepare for and respond to threats to Wisconsin homeland security. The 13-
   member council is responsible for advising the Governor, coordinating State and local
   prevention and response efforts, and producing periodic reports on the state of
   homeland security in Wisconsin.

   Participating Wisconsin State and local agencies:

   •   Badger State Sheriffs Association
   •   Department of Administration – Division of Capital Police
   •   Department of Administration – Division of Enterprise Technology
   •   Department of Agriculture, Trade, and Consumer Protection
   •   Department of Health Services – Division of Public Health
   •   Department of Justice – Division of Criminal Investigation
   •   Department of Military Affairs – Wisconsin Emergency Management
   •   Department of Natural Resources
   •   Department of Transportation – Wisconsin State Patrol
   •   Office of Justice Assistance
   •   Wisconsin Chiefs of Police Association
   •   Wisconsin Homeland Security Advisor – Wisconsin Adjutant General
   •   Wisconsin State Fire Chiefs Association




www.oig.dhs.gov                               25                                     OIG-13-33
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Alexander Best, Director
   Patrick Tobo, Audit Manager
   Stephen Doran, Auditor-In-Charge
   Corneliu Buzesan, Program Analyst
   April Evans, Program Analyst
   Hortencia Francis, Program Analyst
   Falon Newman-Duckworth, Program Analyst
   Kristine Odina, Referencer
   Kelly Herberger, Communications Analyst




www.oig.dhs.gov                         26                    OIG-13-33
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   FEMA Administrator
   FEMA Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  27                        OIG-13-33
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
